CERTIFICATE OF SERVICE
I hereby certify that I have served a copy of the within
and foregoing PETITION FOR WRIT OF CERTIORARI
on Mr. Bob Fuerguson, Attorney General of Washington,
P.O. Box 40100, Olympia, Washington 98514-0100.
This 5th day of December, 2019.

Patrick S. Crick
Petitioner, Pro Se
734 Berne Ln Se
Olympia, Wa. 98513
(360) 789-6323
I Patrick S. Crick declare under penalty of perjury under
the laws of the United States of America that the
foregoing is_true and accurafyd^i compliance with 28
ยง1746

Patrick S. Crick
Petitioner, Pro Se
734 Berne LN. SE
Olympia, Wa 98513
(360) 789-6323

RECEIVED
DEC 10 2019

